U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 1, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

National Coalition for Men, Et Al. v. Selective Service System, et al.,
S.Ct. No. 20-928

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 8,
2021, and placed on the docket on January 12, 2021. The government’s response is due on
February 11, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 15, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-0928
NATIONAL COALITION FOR MEN, ET AL.
SELECTIVE SERVICE SYSTEM, ET AL.

MONICA HAYMOND
ORRICK, HERRINGTON & SUTCLIFFE, LLP
1152 15TH STREET, NW
WASHINGTON, DC 20005
202-339-8453
MHAYMOND@ORRICK.COM
RIA TABACCO MAR
ACLU
125 BROAD STREET, 18TH FLOOR
NEW YORK, NY 10004-2400
212-549-2627
RMAR@ACLU.ORG
JAIME A. SANTOS
GOODWIN PROCTER LLP
1900 N STREET, NW
WASHINGTON, DC 20036
202-346-4000
JSANTOS@GOODWINLAW.COM

